HHS/OIG, Audit - "Review of Florida Physical Therapist's
Medicare Claims for Therapy Services Provided During 2003," (A-06-06-00078)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Florida Physical
Therapist's Medicare Claims for Therapy Services Provided During 2003" (A-06-06-00078)
August 15, 2007
Complete Text of Report is available in PDF format (597 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether
therapy services provided by a Florida physical therapist during calendar year
2003 met Medicare reimbursement requirements.  Of the 100 sampled claims,
96 did not meet Medicares reimbursement requirements.  In total, 494 of
the 702 physical therapy services contained in the 100 sampled claims did not
meet one or more of the Medicare reimbursement requirements because (1) the
physical therapist inappropriately used his provider identification number to
bill for services performed or supervised by someone else, (2) the documentation
for some therapy services did not meet Medicare requirements, (3) some therapy
services were miscoded, and (4) a plan of care did not meet Medicare
requirements.  The physical therapist did not have a thorough understanding of
Medicare requirements and did not have effective policies and procedures in
place to ensure that he billed Medicare only for services that met Medicare
reimbursement requirements.  As a result, the physical therapist improperly
billed Medicare and received $10,781 for the 494 services. We recommend that the
physical therapist (1) refund to the Medicare program $411,781 in unallowable
payments for therapy services provided in 2003 and (2) develop quality control
procedures to ensure that therapy services are provided and documented in
accordance with Medicare reimbursement requirements.  The physical
therapist stated that he will address any issues concerning the audit through
the Medicare appeals process.